Case 20-2518, Document 82-1, 01/25/2021, 3019600, Pagel of 4

20-2518
Logan v. Town of Windsor

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30

At a stated term of the United States Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of
New York, on the 25th day of January, two thousand twenty-one.
PRESENT:
ROBERT A. KATZMANN,
MICHAEL H. PARK,
STEVEN J. MENASHI,
Circuit Judges.

Theresa A. Logan,
Plaintiff-Appellant,
20-2518

v.
Town of Windsor, New York, New York Municipal
Insurance Reciprocal Insurance Company, Robert
Brinks, Gregg Story,
Defendants-Appellees. *

FOR PLAINTIFF-APPELLANT:

Theresa A. Logan, pro se,
Windsor, NY.

FORDEFENDANTS-APPELLEES:

Thomas H. Bouman,
Coughlin & Gerhart, LLP,
Binghamton, NY.

* The Clerk of Court is directed to amend the caption as set forth above.

Case 20-2518, Document 82-1, 01/25/2021, 3019600, Page2 of 4

1
2
3
4

Appeal from a judgment of the United States District Court for the Northern District of
New York (Suddaby, J.; Lovric, M.J.).

UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED.

5

In 2019, Theresa A. Logan, pro se, sued the Town of Windsor, New York (“the Town”),

6

Robert Brinks, Gregg Story, and the Town’s insurance company alleging that, in 2011, she was

7

struck and injured by debris thrown from a snowplow that Brinks and Story operated. The

8

complaint asserted claims of negligence in operation of the snowplow and defamation based on

9

the statements of the defendants’ attorney at a prior proceeding. The district court (Suddaby, J.)

10

dismissed the complaint for lack of subject matter jurisdiction, reasoning that it lacked both

11

federal-question and diversity jurisdiction. The district court also denied leave to amend and Ms.

12

Logan’s motion to appoint counsel. Ms. Logan timely appealed. We assume the parties’ familiarity

13

with the underlying facts, the procedural history of the case, and the issues on appeal.

14

As an initial matter, Ms. Logan has waived any argument relevant to the district court’s

15

dismissal of her case because she does not challenge the district court’s holding that it lacked

16

subject matter jurisdiction in her brief. LoSacco v. City ofMiddletown, 71 F.3d 88, 92-93 (2d Cir.

17

1995) (holding that issues not raised by pro se litigant in appellate brief were abandoned and the

18

Court “need not manufacture claims of error for an appellant proceeding pro .se”).1 In addition,

19

Ms. Logan has waived any challenge to the district court’s denial of her motion to appoint counsel

20

or its denial of leave to amend. Id. The judgment of the district court may be affirmed on these

l

Unless otherwise indicated, in quoting cases, all internal quotation marks, alterations,
emphases, footnotes, and citations are omitted.
2

Case 20-2518, Document 82-1,01/25/2021, 3019600, Page3 of 4

1

grounds alone.

2

Even if Ms. Logan had not waived these arguments, affirmance would be warranted. We

3

review dismissals for lack of subject matter jurisdiction de novo. Brzak v. United Nations, 597

4

F.3d 107, 110-11 (2d Cir. 2010). While “the submissions of a pro se litigant must be construed

5

liberally and interpreted to raise the strongest arguments that they suggest,” Meadows v. United

6

Servs., Inc., 963 F.3d 240, 243 (2d Cir. 2020), a pro se plaintiff still “bears the burden of proving

7

subject matter jurisdiction by a preponderance of the evidence,” Cooke v. United States, 918 F.3d

8

77, 80 (2d Cir. 2019). The district court correctly held that Ms. Logan did not carry this burden.

9

First, the complaint did not plead federal-question jurisdiction because its claims did not

10

“aris[e] under the Constitution, laws, or treaties of the United States.” 28 U.S.C. § 1331. The

11

complaint relied on no provision of federal law and instead sought relief only for claims of

12

negligence and defamation, both of which are common-law torts governed by state law. See

13

Pasternack v. Lab. Corp. of Am. Holdings, 27 N.Y.3d 817, 825 (2016) (negligence); Foster v.

14

Churchill, 87 N.Y.2d 744, 751 (1996) (defamation). While state-law claims may in some

15

circumstances provide a basis for federal-question jurisdiction if they “necessarily raise a stated

16

federal issue,” the complaint alleged the existence of no such issue. Grable & Sons Metal Prods.,

17

Inc. v. Darue Eng’g & Mfg, 545 U.S. 308, 314 (2005).

18

Second, the complaint did not plead diversity jurisdiction because it did not meet 28 U.S.C.

19

§ 1332’s requirement of “complete diversity”—that is, that “all plaintiffs ... be citizens of states

20

diverse from those of all defendants.” Pa. Pub. Sch. Emps. ’ Retirement Sys. v. Morgan Stanley &

21

Co., 772 F.3d 111, 118 (2d Cir. 2014). Ms. Logan’s complaint alleged that she was domiciled in

22

New York, making her a New York citizen. See Palazzo ex rel. Deimage v. Corio, 232 F.3d 38,
3

Case 20-2518, Document 82-1, 01/25/2021, 3019600, Page4 of 4

1

42 (2d Cir. 2000). At least one defendant, the Town, is similarly a citizen of New York. Moor v.

2

Alameda Cnty., 411 U.S. 693, 718 (1973) (“[F]or purposes of diversity of citizenship, political

3

subdivisions are citizens of their respective States

4

diversity, and thus no diversity jurisdiction.

”). As such, there was not complete

5

For the foregoing reasons, the district court properly dismissed Ms. Logan’s complaint for

6

lack of subject matter jurisdiction. It also properly denied leave to amend because this substantive

7

deficiency could not be cured and amendment would thus be futile. See Lucente v. Int’l Bus.

8

Machines Corp., 310 F.3d 243, 258 (2d Cir. 2002). Finally, the district court did not abuse its

9

discretion by denying Ms. Logan’s motion for appointment of counsel because, as a result of these

10

jurisdictional issues, her claims had little chance of success on the merits. See Carpenter v.

11

Republic of Chile, 610 F.3d 776, 780 (2d Cir. 2010) (per curiam).

12
13
14
15

We have considered all of Ms. Logan’s remaining arguments and find in them no basis for
reversal. We thus AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

4

Case 20-2518, Document 94, 03/12/2021, 3054838, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
12th day of March, two thousand twenty-one.

Theresa A. Logan,
Plaintiff-Appellant,
ORDER
v.

Docket No: 20-2518

Town of Windsor, New York, New York Municipal
Insurance Reciprocal Insurance Company, Robert Brinks,
Gregg Story,
Defendants-Appellees.

Appellant, Theresa A. Logan, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

Case 3:19-cv-01590-GTS-ML Document 5 Filed 04/23/20 Page 1 of 14

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

THERESA A. LOGAN,
Plaintiff,
3:19-CV-1590
(GTS/ML)

v.

TOWN OF WINDSOR, NEW YORK;
NEW YORK MUNICIPAL RECIPROCAL
INSURANCE COMPANY; ROBERT
BRINKS, Snowplow Truck Driver; and
GREGG STORY, Wingman for Snowplow
Truck Blade,
Defendants.

OF COUNSEL:

APPEARANCES:
THERESA A. LOGAN
Plaintiff, Pro Se
50 Williams Road
Windsor, New York 13865

MIROSLAV LOVRIC, United States Magistrate Judge

ORDER and REPORT-RECOMMENDATION
The Clerk has sent this pro se Complaint together with an application to proceed in forma
pauperis and motion to appoint counsel filed by Theresa A. Logan (“Plaintiff’) to the Court for
review. (Dkt. Nos. 1, 2, 3.) For the reasons discussed below, I grant Plaintiffs in forma
pauperis application (Dkt. No. 2), deny Plaintiffs motion to appoint counsel (Dkt. No. 3), and
recommend that Plaintiffs Complaint (Dkt. No. 1) be dismissed without leave to amend.

Case 3:19-cv-01590-GTS-ML Document 5 Filed 04/23/20 Page 2 of 14

I.

PROCEDURAL HISTORY
On May 18, 2018, Plaintiff commenced a pro se action in the Northern District of New

York 3:18-CV-0593 (GTS/DEP) (“Logan 7”) against the Town of Windsor, Robert Brinks,
Gregg Story, and New York Municipal Insurance Reciprocal (“Defendants”) asserting claims of
common law assault and battery based on injuries that she sustained on or about March 7, 2011,
when she was allegedly struck by debris thrown in her direction by a snowplow operated by
Defendants Brinks and Story, who were employees of the Town of Windsor at the time. (Logan
7, Dkt. No. 4 at 2.)
On June 26, 2018, United States Magistrate Judge David E. Peebles granted Plaintiffs
IFP application but recommended that Plaintiffs Complaint be dismissed pursuant to 28 U.S.C.
§ 1915(e)(2)(B), with leave to replead because it did not allege facts plausibly suggesting that the
Court had subject matter jurisdiction over her claims. (Logan I, Dkt. No. 4 at 9.)
On July 11, 2018, Plaintiff filed an Amended Complaint. (Logan I, Dkt. No. 5.) On
August 14, 2018, Chief United States District Judge Glenn T. Suddaby, accepted and adopted in
its entirety Magistrate Judge Peebles’s Report-Recommendation and dismissed Plaintiffs
Amended Complaint. (Logan 7, Dkt. No. 6.) Chief Judge Suddaby held that Plaintiffs
Amended Complaint did “not cure the pleading defects identified by Magistrate Judge Peebles in
his thorough Report-Recommendation.” (Id. at 3.) In addition, Chief Judge Suddaby noted that
“the Amended Complaint does not allege either events occurring within three years of the date of
the filing of the Complaint or facts plausibly suggesting an exception to the statute of limitations
(such as a continuing violation).” (Id. at 4.) However, since Plaintiff did not have the benefit of
Chief Judge Suddaby’s Decision and Order when she filed her Amended Complaint on July 11,

2

Case 3:19-cv-01590-GTS-ML Document 5 Filed 04/23/20 Page 3 of 14

2018, she was given “one final chance to correct these pleading defects.” (Id. at 5 [emphasis in
original].)
On September 14, 2018, Plaintiff filed a Second Amended Complaint. (Logan I, Dkt.
No. 7.) On September 28, 2018, Magistrate Judge Peebles recommended that Plaintiffs
Complaint be dismissed pursuant to 28 U.S.C. § 1915(e)(2)(B), without leave to replead. (Logan
L Dkt. No. 8.)
On October 19, 2018, Plaintiff filed a Third Amended Complaint. (Logan I, Dkt. No.
13.) On December 17, 2018, Chief Judge Suddaby accepted and adopted Magistrate Judge
Peebles’s Report-Recommendation in its entirety, dismissed Plaintiffs Third Amended
Complaint, and certified that an appeal would not be taken in good faith pursuant to 28 U.S.C. §
1915(a)(3). (Logan I, Dkt. No. 14.)
On January 11, 2019, Plaintiff filed a notice of appeal. (Logan I, Dkt. No. 16.) On June
5, 2019, the Second Circuit issued an order dismissing Plaintiffs appeal because it “lacks an
arguable basis either in law or in fact.” (Logan I, Dkt. No. 18.)
On December 20, 2019, Plaintiff commenced this pro se action against Defendants.
II.

PLAINTIFF’S ALLEGATIONS
Construed as liberally1 as possible, Plaintiffs Complaint alleges that she sustained

injuries on or about March 7, 2011, when she was struck by debris thrown in her direction by a
snowplow operated by Defendants Brinks and Story, who were employees of the Town of
Windsor at the time. (See generally Dkt. No. 1.) Plaintiff alleges that as a result of these
injuries, she sustained permanent physical damage, resigned from her job, and has become

1
The court must interpret pro se complaints to raise the strongest arguments they suggest.
Soto v. Walker, 44 F.3d 169, 173 (2d Cir. 1995) (quoting Burgos v. Hopkins, 14 F.3d 787, 790
(2d Cir. 1994)).
3

Case 3:19-cv-01590-GTS-ML Document 5 Filed 04/23/20 Page 4 of 14

financially stressed. {Id.) Plaintiff alleges that her “original lawsuit. . . was set at $209,000.00
dollars” and she is “more than willing to negotiate and mediate for a lower amount” but “is
asking for the Courts decision on what they feel is a fare amount.?” (Dkt. No. 1 at 9 [unaltered
text, errors in original].)
In addition, Plaintiff alleges that during a court proceeding related to the events alleged in
the Complaint, Defendants’ attorney, James P. O’Brien submitted “court documents. Stating
‘plaintiff has bone degeneration, arthritis, and other pre-existing medical issues’. He also stated
that ‘plaintiff only resided at her home for 6 months’.” {Id. at 10.) However, Plaintiff alleges
that she has not been diagnosed with nor she have any of the symptoms described by Mr.
O’Brien and she “had been living at her residence for 3.5 years.” {Id.)
As a result of these factual allegations, Plaintiff asserts the following two claims: (1) a
claim of negligence in operation of the snowplow; and (2) defamation based on Defendants’
attorney’s statements. (Dkt. No. 1 at 9-10.)
For a more complete statement of Plaintiff s claims, refer to the Complaint. (Dkt. No. 1.)
Plaintiff also filed an application for leave to proceed in forma pauperis. (Dkt. No. 2.)
III.

PLAINTIFF’S APPLICATION TO PROCEED IN FORMA PAUPERIS
When a civil action is commenced in a federal district court, the statutory filing fee,

currently set at $400, must ordinarily be paid. 28 U.S.C. § 1914(a). A court is authorized,
however, to permit a litigant to proceed in forma pauperis status if a party “is unable to pay” the
standard fee for commencing an action. 28 U.S.C. § 1915(a)(1).2 After reviewing Plaintiffs in

2

The language of that section is ambiguous because it suggests an intent to limit
availability of IFP status to prison inmates. See 28 U.S.C. § 1915(a)(1) (authorizing the
commencement of an action without prepayment of fees “by a person who submits an affidavit
that includes a statement of all assets such prisoner possesses”). The courts have construed that
section, however, as making IFP status available to any litigant who can meet the governing
4

Case 3:19-cv-01590-GTS-ML Document 5 Filed 04/23/20 Page 5 of 14

forma pauperis application (Dkt. No. 2), the Court finds that Plaintiff meets this standard.
Therefore, Plaintiffs application to proceed in forma pauperis is granted.3
IV.

LEGAL STANDARD FOR INITIAL REVIEW OF COMPLAINT
“Notwithstanding any filing fee, or any portion thereof, that may have been paid, the

court shall dismiss the case at any time if the court determines that. . . the action . . . (i) is
frivolous or malicious; (ii) fails to state a claim on which relief may be granted; or (iii) seeks
monetary relief against a defendant who is immune from such relief.” 28 U.S.C. § 1915(e)(2).
In addition, the Court shall dismiss any action where the Complaint fails to allege facts
plausibly suggesting subject matter jurisdiction. Fed. R. Civ. P. 12(h)(3); see Steel Co. v.
Citizens for a Better Env’t, 523 U.S. 83, 88-89 (1988) (holding that subject matter jurisdiction is
a “threshold question that must be resolved . . . before proceeding to the merits.”); Humphrey v.
Syracuse Police Dep’t, 758 F. App’x 205, 205-06 (2d Cir. 2019) (citing United States v. Bond,
762 F.3d 255, 263 (2d Cir. 2014)) (“[bjefore deciding any case on the merits, a district court
must determine that it has subject matter jurisdiction over the matter.”); Koziel v. City of
Yonkers, 352 F. App’x 470, 471 (2d Cir. 2009) (summary order) (affirming sua sponte dismissal
of complaint on initial review for lack of subject matter); Talley v. LoanCare Serv., Div. ofFNF,
15-CV-5017, 2018 WL 4185705, at *5 (E.D.N.Y. Aug. 31, 2018) (dismissing on initial review,
action challenging state court mortgage foreclosure judgment because the court lacked
jurisdiction); Eckert v. Schroeder, Joseph & Assoc., 364 F. Supp. 2d 326, 327 (W.D.N.Y. 2005)

financial criteria. Hayes v. United States, 71 Fed. Cl. 366, 367 (Fed. Cl. 2006); Fridman v. City
ofN.Y., 195 F. Supp. 2d 534, 536 n.l (S.D.N.Y. 2002).
3

Plaintiff is reminded that, although the application to proceed in forma pauperis has been
granted, she will still be required to pay fees that she may incur in this action, including copying
and/or witness fees.
5

Case 3:19-cv-01590-GTS-ML Document 5 Filed 04/23/20 Page 6 of 14

(citing Hughes v. Patrolmen's Benevolent Ass'n of the City ofN.Y., Inc., 850 F.2d 876, 881 (2d
Cir. 1988), cert, denied, 488 U.S. 967 (1988)) (“[a] court shall, sua sponte, dismiss a complaint
for lack of subject matter jurisdiction as soon as it is apparent that it lacks subject matter
jurisdiction.”).
In order to state a claim upon which relief can be granted, a complaint must contain, inter
alia, “a short and plain statement of the claim showing that the pleader is entitled to relief.” Fed.
R. Civ. P. 8(a)(2). The requirement that a plaintiff “show” that he or she is entitled to relief
means that a complaint “must contain sufficient factual matter, accepted as true, to ‘state a claim
to relief that is plausible on its facz.’’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (emphasis
added) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 [2007]). “Determining whether a
complaint states a plausible claim for relief... requires the .. . court to draw on its judicial
experience and common sense... . [Wjhere the well-pleaded facts do not permit the court to
infer more than the mere possibility of misconduct, the complaint has alleged-but it has not
shown-that the pleader is entitled to relief.” Iqbal, 556 U.S. at 679 (internal citation and
punctuation omitted).
“In reviewing a complaint... the court must accept the material facts alleged in the
complaint as true and construe all reasonable inferences in the plaintiffs favor.” Hernandez v.
Coughlin, 18 F.3d 133, 136 (2d Cir. 1994) (citation omitted). However, “the tenet that a court
must accept as true all of the allegations contained in a complaint is inapplicable to legal
conclusions. Threadbare recitals of the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Iqbal, 556 U.S. at 678.
Courts are “obligated to construe a pro se complaint liberally.” Harris v. Mills, 572 F.3d
66, 72 (2d Cir. 2009); see also Nance v. Kelly, 912 F.2d 605, 606 (2d Cir. 1990) (per curiam)

6

Case 3:19-cv-01590-GTS-ML Documents Filed 04/23/20 Page 7 of 14

(reading the plaintiffs pro se complaint “broadly, as we must” and holding that the complaint
sufficiently raised a cognizable claim). “[EJxtreme caution should be exercised in ordering sua
sponte dismissal of a pro se complaint before the adverse party has been served and [the] parties .
.. have had an opportunity to respond.” Anderson v. Coughlin, 700 F.2d 37, 41 (2d Cir. 1983).
The Court, however, also has an overarching obligation to determine that a claim is not
legally frivolous before permitting a pro se plaintiffs complaint to proceed. See, e.g., Fitzgerald
v. First East Seventh St. Tenants Corp., 221 F.3d 362, 363 (2d Cir. 2000) (holding that a district
court may sua sponte dismiss a frivolous complaint, notwithstanding the fact that the plaintiff
paid the statutory filing fee). “Legal frivolity .. . occurs where ‘the claim is based on an
indisputably meritless legal theory [such as] when either the claim lacks an arguable basis in law,
or a dispositive defense clearly exists on the face of the complaint.” Aguilar v. United States, 99MC-0304, 99-MC-0408, 1999 WL 1067841, at *2 (D. Conn. Nov. 8, 1999) (quoting Livingston
v. Adirondack Beverage Co., 141 F.3d 434, 437 (2d Cir. 1998)); see also Neitzke v. Williams,
490 U.S. 319, 325 (1989) (“[Dismissal is proper only if the legal theory ... or factual
contentions lack an arguable basis.”); Pino v. Ryan, 49 F.3d 51, 53 (2d Cir. 1995) (“[T]he
decision that a complaint is based on an indisputably meritless legal theory for purposes of
dismissal under section 1915(d), may be based upon a defense that appears on the face of the
complaint.”).
V.

ANALYSIS
After careful consideration, I recommend dismissal of Plaintiff s claims because the

Complaint fails to allege facts plausibly suggesting that the Court has subject matter jurisdiction.
Subject matter jurisdiction can never be waived or forfeited. ACCD Global Agric., Inc. v.
Perry, 12-CV-6286, 2013 WL 840706, at *1 (S.D.N.Y. March 1, 2013) (quoting Dumann Realty,

7

Case 3:19-cv-01590-GTS-ML Document 5 Filed 04/23/20 Page 8 of 14

LLC v. Faust, 09-CV-7651, 2013 WL 30672, at *1 (S.D.N.Y. Jan. 3, 2013)). Federal courts are
mandated to examine their own jurisdiction sua sponte at every stage of the litigation. ACCD
Global Agric., Inc., 2013 WL 840706, at *1; see In re Tronox, Inc., 855 F.3d 84, 85 (2d Cir.
2017) (federal courts have an independent obligation to consider the presence or absence of
subject matter jurisdiction sua sponte).
A federal court exercises limited jurisdiction pursuant to Article III of the
Constitution. It has subject matter jurisdiction over claims in which: (1)
there is a ‘federal question’ in that a colorable claim arises under the
‘Constitution, laws or treaties of the United States,’ 28 U.S.C. § 1331;
and/or if (2) there is complete “diversity of citizenship” between each
plaintiff and all defendants and a minimum of $75,000 in controversy, 28
U.S.C. § 1332.
Gonzalez v. Ocwen Home Loan Servicing, 74 F. Supp. 3d 504, 511-12 (D. Conn. 2015) (quoting
Da Silva v. Kinsho Int’l Corp., 229 F.3d 358, 363 (2d Cir. 2000) (delineating two categories of
subject matter jurisdiction) (footnote omitted)), reconsideration denied, 14-CV-0053, 2015 WL
2124365 (D. Conn. May 6, 2015).
The existence of a federal question is governed by the “well-pleaded complaint” rule,
which provides that federal jurisdiction exists only when a federal question is presented on the
face of the plaintiffs properly pleaded complaint. 28 U.S.C. § 1331. A well-pleaded complaint
presents a federal question where it “establishes either that federal law creates the cause of action
or that the plaintiffs right to relief necessarily depends on a resolution of a substantial question
of federal law.” Franchise Tax Bd. ofState of Cal. v. Constr. Laborers Vacation Trust, 463 U.S.
1,9(1983).
Here, the Civil Cover Sheet, which accompanied Plaintiffs Complaint, alleges that the
basis for the Court’s jurisdiction is that it presents a federal question. (Dkt. No. 1, Attach. 1.)
However, the Complaint fails to cite any federal statute, treaty, or the United States Constitution

8

Case 3:19-cv-01590-GTS-ML Document 5 Filed 04/23/20 Page 9 of 14

as a basis for Plaintiffs claims. Instead, the Complaint states that this Court has jurisdiction
because “Plaintiff is a resident of Broome County. Also the ‘Vehicle & Traffic Law for New
York State si 103(b)’, is when the Conduct of the Snowplow Operators is judged to be, Drunk
Driving while plowing a road, or ‘RECKLESS DISREGARD’.” (Dkt. No. 1 at 2 [unaltered text,
errors in original].) In addition, the Complaint alleges that a “friend, told plaintiff about Federal
Court. Plaintiff states ‘the respect and concern she’s received is phenomenal!’ This is also why
plaintiff feels the Federal Court is the proper Venue.” (Dkt. No. 1 at 3 [unaltered text, errors in
original].)
Merely because the events giving rise to Plaintiffs claims occurred within the Northern
District of New York, does not convey jurisdiction to this Court. Plaintiffs only asserted causes
of action (negligence and defamation), are New York State common-law torts governed by state
law, and as plead, these state-law claims do not raise any federal questions. Wilson v.
Neighborhood Restore Dev., 18-CV-1172, 2018 WL 2390143, at *3 (E.D.N.Y. May 18, 2018)
(dismissing the complaint for lack of subject matter jurisdiction where the plaintiffs alleged
claims of breach of contract, breach of warranty of habitability, negligence, personal injury, and
fraud); Lindstrom v. Transervice Logistics Inc., 17-CV-6988, 2018 WL 1121598, at *2
(E.D.N.Y. Feb. 27, 2018) (sua sponte dismissing the complaint for lack of subject matter
jurisdiction, where the plaintiffs alleged claims pursuant to negligence and loss of consortium
based on a multi-vehicle automobile accident that occurred on Interstate 78); West v. Sanchez,
17-CV-2482, 2017 WL 1628887, at *2 (E.D.N.Y. May 1, 2017) (finding no federal question
jurisdiction where the “allegations appear to amount to a state-law personal injury claim”);
Zhengv. General Elec. Co., 15-CV-1232, 2015 WL 7421961, at *3 (N.D.N.Y. Oct. 26, 2015)
(Hummel, M.J.) (“[a] claim for defamation against non-governmental [actors] arises under New

9

Case 3:19-cv-01590-GTS-ML Document 5 Filed 04/23/20 Page 10 of 14

York State common law.”); Mosley v. McIntosh, 08-CV-9635, 2009 WL 1542546, at *3
(S.D.N.Y. May 29, 2009) (quoting Sadallah v. City of Utica, 383 F.3d 34, 38 (2d Cir. 2004))
(‘“Defamation ... is an issue of state law, not federal constitutional law, and therefore provides
an insufficient basis to maintain a § 1983 action.’”); White v. Ercole, 06-CV-l 136, 2009 WL
602890, at *5 (S.D.N.Y. Mar. 3, 2009) (negligence claim is a matter of state law).
The Court notes that Plaintiff does not assert any colorable claim arising under the
Constitution, laws, or treaties of the United States as a basis for federal jurisdiction, and the case
could be dismissed for that reason. The Court must keep in mind, however, that when a plaintiff
proceeds pro se, the pleadings must be construed with great liberality. McDermott, 2011 WL
4834257, at *3 (citing Sealed Plaintiff v. Sealed Defendants, 537 F.3d 185, 191 (2d Cir. 2008)).
The Court must interpret the pleadings to raise the strongest arguments they suggest. Id. (citing
McPherson v. Coombe, 174 F.3d 276, 279 (2d Cir. 1999)).
There is no diversity of citizenship sufficient to assert jurisdiction in this case pursuant to
28 U.S.C. § 1332. (Dkt. No. 1 at 4 [alleging that Plaintiff is a citizen of New York State and that
Defendant Town of Windsor is also a citizen of New York State]); see Illinois v. City of
Milwaukee, 406 U.S. 91, 97 (1972) (“It is well settled that for purposes of diversity of
citizenship, political subdivisions are citizens of their respective States.”)
After carefully reviewing Plaintiffs Complaint (and the complaint and amended
complaints in Logan I, which relate to the same events alleged in the Complaint here), and
considering other possible bases for jurisdiction, I find that there is no basis for jurisdiction over
Plaintiffs Complaint.

10

Case 3:19-cv-01590-GTS-ML Document 5 Filed 04/23/20 Page 11 of 14

VI.

OPPORTUNITY TO AMEND
Generally, a court should not dismiss claims contained in a complaint filed by a pro se

litigant without granting leave to amend at least once “when a liberal reading of the complaint
gives any indication that a valid claim might be stated.” Branum v. Clark, 927 F.2d 698, 704-05
(2d Cir. 1991); see also Fed. R. Civ. P. 15(a)(2) (“The court should freely give leave when
justice so requires.”). An opportunity to amend is not required, however, where “the problem
with [the plaintiffs] causes of action is substantive” such that “better pleading will not cure it.”
Cuoco v. Moritsugu, 222 F.3d 99, 112 (2d Cir. 2000); see also Cortec Indus. Inc. v. Sum Holding
L.P., 949 F.2d 42, 48 (2d Cir. 1991) (“Of course, where a plaintiff is unable to allege any fact
sufficient to support its claim, a complaint should be dismissed with prejudice.”). Stated
differently, “[wjhere it appears that granting leave to amend is unlikely to be productive,... it is
not an abuse of discretion to deny leave to amend.” Ruffolo v. Oppenheimer & Co., 987 F.2d
129, 131 (2d Cir. 1993); accord, Brown v. Peters, 95-CV-1641, 1997 WL 599355, at *1
(N.D.N.Y. Sept. 22, 1997) (Pooler, J.).4
In this case, because the Court already afforded Plaintiff an opportunity to amend her
Complaint three times in Logan I, which, as set forth infra, relates to the same underlying events
as alleged here, I find that the Court need not grant Plaintiff an opportunity to amend. See Hall
v. Clinton Cnty., 18-CV-1405, 2020 WL 1923236, at *7 (N.D.N.Y. Apr. 21, 2020) (Suddaby,
C.J.) (dismissing without leave to amend the pro se plaintiffs amended complaint where the

4

See also Carris v. First Student, Inc., 132 F. Supp. 3d 321, 340-41 n.l (N.D.N.Y. 2015)
(Suddaby, C.J.) (explaining that the standard set forth in Gomez v. USAA Fed. Sav. Bank, 171
F.3d 794, 796 (2d Cir. 1999) (that the Court should grant leave to amend “unless the court can
rule out any possibility, however unlikely it might be, that an amended complaint would be
successful in stating a claim”), is likely not an accurate recitation of the governing law after Bell
Atl. Corp. v. Twombly, 550 U.S. 544 (2007)), rev’d on other grounds, 682 F. App’x 30.
11

Case 3:19-cv-01590-GTS-ML Document 5 Filed 04/23/20 Page 12 of 14

court “already afforded Plaintiff an opportunity to amend his Complaint” and the court found
that it “lacks subject-matter jurisdiction.”)- Moreover, the Court notes that it afforded Plaintiff
substantial solicitude in construing the content of her complaints and in considering the totality
of all her allegations when determining the sufficiency of her complaints. (The Court has also
ignored the vexatiousness of Plaintiff s having filed virtually identical complaints in this Court.) 5
The Court cannot conceive of additional allegations that Plaintiff could add to the collection of
complaints and amendments that the Court has already considered. As a result, despite
Plaintiffs pro se status, the Court finds that allowing an opportunity to amend would be futile.
See Dorozv. Delorio’s Foods, Inc., 19-CV-0924, 2020 WL 529841, at *13 (N.D.N.Y. Feb. 3,
2020) (Suddaby, C.J.) (finding that allowing an opportunity to amend would be futile where the
Court already afforded the plaintiff “substantial solicitude in construing the context” of his
submissions and the plaintiff “filed virtually identical complaints in this Court”); see also
Carrasco v. Annucci, 17-CV-0246, 2017 WL 6492010, at *2 (N.D.N.Y. Dec. 15, 2017)
(Suddaby, C.J.) (dismissing a complaint pursuant to 28 U.S.C. § 1915(e)(2)(B) without leave to
amend “because plaintiff has already had two opportunities to amend the complaint”).
VII.

PLAINTIFF’S MOTION TO APPOINT COUNSEL
Plaintiff has also submitted a request for appointment of counsel. (Dkt. No. 3.) The

application indicates that Plaintiff has been unsuccessful in her efforts to obtain counsel on her
own from the private sector. (Id)
5

In fact, the Court notes that the first page of the Complaint has the type-written words
“Motion for Rehearing” crossed out. (Dkt. No. 1 at 1.) In addition, the first page of the
Complaint also has the type-written words “(GTS/DEP)” crossed out. (Id.) “GTS” are the
initials of the assigned Chief United States District Judge in Logan I, and “DEP” are the initials
of the assigned United States Magistrate Judge in Logan I. These markings further emphasize
Plaintiffs intent to get a figurative “second bite at the apple” after Logan I was dismissed with
prejudice.
12

Case 3:19-cv-01590-GTS-ML Document 5 Filed 04/23/20 Page 13 of 14

As an initial matter, “[a] party has no constitutionally guaranteed right to the assistance of
counsel in a civil case.” Leftridge v. Connecticut State Trooper Officer No. 1283, 640 F.3d 62,
68 (2d Cir. 2011) (citations omitted). Courts cannot utilize a bright-line test in determining
whether counsel should be appointed on behalf of an indigent party. Hendricks v. Coughlin, 114
F.3d 390, 392-93 (2d Cir. 1997). Instead, a number of factors must be carefully considered by
the court in ruling upon such a motion. As a threshold matter, the court should ascertain whether
the indigent’s claims seem likely to be of substance. A motion for appointment of counsel may
be properly denied if the court concludes that the plaintiff’s “chances of success are highly
dubious.” Leftridge, 640 F.3d at 69. If the court finds that the claims have substance, the court
should then consider:
[T]he indigent’s ability to investigate the crucial facts, whether conflicting
evidence implicating the need for cross-examination will be the major
proof presented to the fact finder, the indigent’s ability to present the case,
the complexity of the legal issues and any special reason in th[e] case why
appointment of counsel would be more likely to lead to a just
determination.
Terminate Control Corp. v. Horowitz, 28 F.3d 1335, 1341 (2d Cir. 1994) (quoting Hodge v.
Police Officers, 802 F.2d 58, 61-62 (2d Cir. 1986)). This is not to say that all, or indeed any, of
these factors are controlling in a particular case. Rather, each case must be decided on its own
facts. Velasquez v. O’Keefe, 899 F. Supp. 972, 974 (N.D.N.Y. 1995) (McAvoy, C.J.) (citing
Hodge, 802 F.2d at 61).
In the present matter, the Court has recommended dismissal of the action. As such, the
Court cannot find that Plaintiffs claims are likely to be of substance. Plaintiffs motion (Dkt.
No. 3) is therefore denied.
ACCORDINGLY, it is

13

Case 3:19-cv-01590-GTS-ML Document 5 Filed 04/23/20 Page 14 of 14

ORDERED that the application to proceed in forma pauperis (Dkt. No. 2) is
GRANTED; and it is further
ORDERED that Plaintiffs motion for appointment of counsel (Dkt. No. 3) is DENIED;
and it is further respectfully
RECOMMENDED that the Court DISMISS WITHOUT LEAVE TO REPLEAD
Plaintiffs Complaint (Dkt. No. 1) because the Court lacks subject matter jurisdiction.
NOTICE: Pursuant to 28 U.S.C. § 636(b)(1), the parties have fourteen days within
which to file written objections to the foregoing report.6 Such objections shall be filed with the
Clerk of the Court. FAILURE TO OBJECT TO THIS REPORT WITHIN FOURTEEN
DAYS WILL PRECLUDE APPELLATE REVIEW. 28 U.S.C. § 636(b)(1) (Supp. 2013);
Fed. R. Civ. P. 6(a), 6(d), 72; Roldan v. Racette, 984 F.2d 85 (2d Cir. 1993) (citing Small v.
Sec ’y ofHealth and Human Servs., 892 F.2d 15 (2d Cir. 1989)).
It is hereby respectfully ORDERED that the Clerk of the Court shall file a copy of this
order, report, and recommendation on the docket of this case and serve a copy upon the parties in
accordance with the local rules.7

Dated: April 22,2020
Binghamton, New York

Miroslav Lovric
U.S. Magistrate Judge

6

If you are proceeding pro se and served with this report, recommendation, and order by
mail, three additional days will be added to the fourteen-day period, meaning that you have
seventeen days from the date that the report, recommendation, and order was mailed to you to
serve and file objections. Fed. R. Civ. P. 6(d). If the last day of that prescribed period falls on a
Saturday, Sunday, or legal holiday, then the deadline is extended until the end of the next day
that is not a Saturday, Sunday, or legal holiday. Fed. R. Civ. P. 6(a)(1)(C).
7

The Clerk shall also provide Plaintiff with copies of all unreported decisions cited herein
in accordance with Lebron v. Sanders, 557 F.3d 76 (2d Cir. 2009) (per curiam).

14

Case 3:19-cv-01590-GTS-ML Document 12 Filed 07/20/20 Page 1 of 3

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

THERESA A. LOGAN,
Plaintiff,
3:19-CV-1590
(GTS/ML)

v.

TOWN OF WINDSOR, NEW YORK; NEW YORK
MUN. RECIPROCAL INS. CO.; ROBERT BRINKS,
Snowplow Truck Driver; and GREGG STORY,
Wingman for Snowplow Truck Blade,
Defendants.

APPEARANCES:

OF COUNSEL:

THERESA A. LOGAN
Plaintiff, Pro Se
50 Williams Road
Windsor, New York 13865
COUGHLIN & GERHART
Counsel for Defendants
P.O. Box 2039
99 Corporate Drive
Binghamton, New York 13902

THOMAS HEGARTY BOUMAN, ESQ.

GLENN T. SUDDABY, Chief United States District Judge
DECISION and ORDER
Currently before the Court, in this pro se torts action filed by Theresa Logan (“Plaintiff’)
asserting a personal injury claim against the Town of Windsor, New York, its insurance
company, and two of its employees (“Defendants”), are (1) United States Magistrate Judge
Miroslav Lovric’s Report-Recommendation recommending that Plaintiffs Complaint be sua
sponte dismissed without leave to replead for lack of subject-matter jurisdiction, (2) Plaintiffs
Objections to the Report-Recommendation, (3) Defendants’ response to Plaintiffs Objections,

Case 3:19-cv-01590-GTS-ML Document 12 Filed 07/20/20 Page 2 of 3

and (4) Plaintiffs reply to Defendants’ response. (Dkt. Nos. 5, 6, 8, 10.) After carefully
reviewing the relevant papers herein, the Court can find no error in the Report-Recommendation,
clear or otherwise. Magistrate Judge Lovric employed the proper standards, accurately recited
the facts, and reasonably applied the law to those facts. As a result, the Report-Recommendation
is accepted and adopted in its entirety for the reasons set forth therein. To those reasons, the
Court adds only three points.
First, Plaintiff is respectfully advised that the primary defect in her Complaint identified
by Magistrate Judge Lovric in his Report-Recommendation is not the untimeliness of her claims
(due to her violation of the applicable statute of limitations) but the Court’s lack of subjectmatter jurisdiction over those claims (due to lack of either federal question jurisdiction or
diversity of jurisdiction). As a result, her argument regarding the appropriateness of tolling the
statute of limitations is misplaced: the Court cannot toll a limitations period in an action over
which it has no subject-matter jurisdiction.
Second, the Court finds, from the face of Plaintiff s Complaint and exhibits thereto, that
Defendant New York Municipal Insurance Reciprocal appears to be a citizen of New York State
for purposes of diversity jurisdiction.
Third, in response to Defendants’ request (in their response to Plaintiffs Objections) that
the Court admonish Plaintiff (specifically, that the Court warn her that filing further frivolous,
vexatious, and malicious litigation regarding this matter may result in the imposition of costs
and/or sanctions), the Court agrees to a certain extent: Plaintiff should be, and is hereby.
cautioned that further unmerited filings by her will likely result in an Order for her to Show
Cause why a Pre-Filing Order should not be issued against her, enjoining her from filing any

2

Case 3:19-cv-01590-GTS-ML Document 12 Filed 07/20/20 Page 3 of 3

future documents in this Court as a pro se litigant without the leave of the Court.
ACCORDINGLY, it is
ORDERED that Magistrate Judge Lovric’s Report-Recommendation (Dkt. No. 5) is
ACCEPTED and ADOPTED in its entirety; and it is further
ORDERED that Complaint (Dkt. No. 1) is DISMISSED without leave to replead for
lack of subject-matter jurisdiction.

Dated: July 20, 2020
Syracuse, New York

Hon. Glenn T. Suddaby s
Chief US. District Judge/

3

Additional material
from this filing is
available in the
Clerk's Office.

